Office of
Inspector
General


             Semiannual
             Report to the
             Congress

             April 1, 2006
             September 30, 2006


Railroad
Retirement
Board
                        TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           2


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    4

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             5

Audits: Management Decisions and Implementation . . . . . . . . . . . . . . . . . . .                                   14 


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   15 

Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           17 

Investigative Caseload Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               18 

Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 20 

Civil Enforcement Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               28 

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     29 


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . .                                                   30


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              31 

(B) OIG Reports with Recommendations that Questioned Costs and

     Recommendations that Funds Be Put To Better Use . . . . . . . . . . . . . . . .                                    32 

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . . . . . . . .                                34 

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      35 

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . . . . . . . .                           41 





                  All reports are available via the Internet at http://www.rrb.gov
   Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




EXECUTIVE SUMMARY

Audit Activities
    During the reporting period of April 1 through September 30, 2006, the Office of
    Audit completed the Fiscal Year (FY) 2006 evaluation of the Railroad Retirement
    Board’s information security to meet the requirements of the Federal Information
    Security Management Act (FISMA) of 2002. Auditors reported that the agency
    continues to experience difficulty in achieving an effective, FISMA compliant
    security program. (A summary of the auditors’ findings can be found on page 5.)

    Auditors also issued their findings from their evaluation of the agency’s Disaster
    Recovery Plan, a review of computer incident handling and reporting, and the
    award of a database conversion contract. Management concurred with the all
    recommendations contained in the reports and have initiated corrective actions.

    Three additional reviews were completed to support the annual audit of the RRB’s
    financial statements. These reviews examined compliance with the provisions of
    the Railroad Retirement Act in the initial award of benefits, the termination and
    suspension of benefits, and actions to deny or cancel applications for benefits.
    They estimated a one-time financial impact of $200,000 resulting from unidentified
    overpayments and underpayments.


Investigative Accomplishments
    The Office of Investigations (OI) achieved 36 convictions, 19 indictments and
    informations, 27 civil judgements, and $2.2 million in recoveries, restitutions, fines,
    civil damages, and penalties. OI also submitted a number of recommendations to
    agency program management concerning program processed and records
    management operations. (Details of the recommendations are described on
    pages 15-16.)




                                           1
   Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




INTRODUCTION

Railroad Retirement Board
                        The Railroad Retirement Board (RRB) is an independent
                        agency in the executive branch of the Federal government that
                        is headed by a three member Board appointed by the President
                        of the United States, with the advice and consent of the
                        Senate. One member is appointed upon the recommendation
                        of railroad employers, one is appointed upon the
                        recommendation of railroad labor organizations, and the third,
                        who is the Chairman, is appointed to represent the public
                        interest.

                        The agency administers comprehensive retirement-survivor
                        and unemployment-sickness insurance benefit programs for
                        the nation's railroad workers and their families under the
                        Railroad Retirement and Railroad Unemployment Insurance
                        Acts. The RRB also has administrative responsibilities under
                        the Social Security Act for certain benefit payments and
                        Medicare coverage for railroad workers.

                        During FY 2005, the RRB paid approximately $9.2 billion in
                        retirement and survivor benefits to some 634,000 beneficiaries,
                        while net unemployment and sickness insurance benefits of
                        $73 million were paid to almost 29,000 claimants. The RRB
                        also administers its own Medicare Part B program through a
                        single carrier, Palmetto GBA. The carrier made payments
                        totaling $870 million to provide medical insurance benefits for
                        535,000 beneficiaries.




                                           2
   Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




Office of Inspector General

                        The Office of Inspector General (OIG) has the responsibility for
                        promoting economy, efficiency and effectiveness in the
                        programs of the Railroad Retirement Board. The office is also
                        charged with the detection, prevention and elimination of fraud,
                        waste and abuse in agency operations. To accomplish its
                        mission, the OIG conducts audits, management reviews and
                        investigations.

                        The Railroad Retirement Solvency Act of 1983 established the
                        Office of Inspector General at the Railroad Retirement Board
                        by naming the agency as “one of such establishments”
                        identified under Section 2 of the Inspector General Act of 1978.
                        The Inspector General Act Amendments of 1988 added the
                        RRB to the list of agencies covered by the Inspector General
                        Act.

                        The OIG has 53 employees assigned to three operational
                        components: the immediate office of the Inspector General,
                        the Office of Audit, and the Office of Investigations. The office
                        conducts operations from several locations: the headquarters
                        of the Railroad Retirement Board in Chicago, Illinois, an
                        investigative field office in Philadelphia, Pennsylvania, and a
                        newly established domicile investigative office in Arlington, VA
                        staffed with a senior special agent. The OIG opened this office
                        to allow more effective liaison with the investigative offices of
                        other Inspectors General that are headquartered in the
                        Washington, DC metropolitan area.




                                           3
 Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




OFFICE OF AUDIT

                      The Office of Audit (OA) conducts audits and reviews to
                      promote economy, efficiency, and effectiveness in the
                      administration of RRB programs, and to detect and prevent
                      waste, fraud, and abuse in such programs. Through the
                      Inspector General, the office ensures that the Board Members
                      and Congress are informed of current and potential problems in
                      the RRB’s programs and operations, and advised of
                      recommended improvements, as well as the status of
                      corrective actions. OA examines programmatic, financial, and
                      administrative aspects of RRB operations.

                      During this semiannual reporting period, OA performed the
                      FY 2006 evaluation of the agency’s information security and
                      reported that weaknesses continue to exist in many areas.

                      Three additional audits were completed concerning the
                      agency’s Disaster Recovery Plan, computer incident handling
                      and reporting, and the awarding of a database conversion
                      contract.

                      Auditors also conducted reviews in support of the FY 2006
                      audit of the RRB’s financial statements. These reviews
                      examined compliance with the provisions of the Railroad
                      Retirement Act in the awarding, termination, suspension, denial
                      and cancellation of benefits.

                      Discussion of completed reviews, major findings and
                      recommendations for corrective actions follow.




                                         4
   Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




Fiscal Year 2006 Evaluation of Information Security

                        OIG auditors performed the annual evaluation of the agency’s
                        information security to meet the requirements of the Federal
                        Information Security Management Act of 2002 (FISMA). As
                        required by the legislation, they tested the effectiveness of
                        information security, policies, procedures and practices of a
                        representative subset of the RRB’s information systems, and
                        assessed the compliance with FISMA requirements and related
                        information security policies, procedures, standards and
                        guidelines.

                        During FY 2006, the OIG audited the agency’s incident
                        handling and reporting program, and evaluated the disaster
                        recovery plan. Auditors also initiated an audit of the application
                        controls of the Daily Activity Input System/Checkwriting
                        Integrated Computer Operation component application of the
                        RRA benefit payment major application. They examined the
                        results of prior audits and evaluations of information security
                        conducted during FYs 2000-2005.

                        Review results indicated that the RRB continues to experience
                        difficulty in achieving an effective, FISMA compliant security
                        program. During FY 2006, the agency completed corrective
                        action to eliminate the previously reported significant deficiency
                        in training. However, significant deficiencies in access
                        controls, risk assessments, and periodic testing and evaluation
                        continue to exist. In addition, other observed weaknesses in
                        the agency’s implementation of requirements for risk based
                        policies and procedures, a remedial action process, continuity
                        of operations, and inventory of systems continue to exist.

                        Recommended Action:

                        Because agency actions to implement prior OIG
                        recommendations for corrective action are pending, no new
                        recommendations were made. Auditors noted that the RRB is
                        in the process of forming an agencywide Security and Privacy

                                           5
    Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                         Committee that will be responsible for providing direction,
                         issuing guidance, compiling certifications and providing specific
                         oversight for agencywide implementation of FISMA
                         requirements.


Evaluation of the Railroad Retirement Board’s Disaster
Recovery Plan

                         The RRB, with the assistance of Science Applications
                         International Corporation, prepared and published its Disaster
                         Recovery Plan on December 23, 2003. The plan includes
                         provisions for the recovery of critical business functions
                         performed by the agency and restoration of full normal
                         operations when conditions permit return to original or
                         replacement primary facilities. The majority of critical functions
                         are dependent upon applications maintained on the agency’s
                         mainframe. In addition, the RRB’s local area network is
                         important in ensuring communications among field office
                         networks, headquarters workstations and the agency’s
                         mainframe.

                         Auditors evaluated the agency’s disaster recovery plan and
                         concluded that the plan provides assurance that major
                         information technology functions will be operational in the event
                         of a disaster, but only if the agency has access to a Chicago
                         area offsite disaster recovery site. The current contract
                         provides the RRB access to the local offsite facility on a first-
                         come, first-served basis, and provides for an alternate facility
                         located in Philadelphia, PA. However, the agency has not
                         performed any testing at this alternate facility.

                         Auditors also expressed concerns that, although the RRB tests
                         the Recovery Phase of the plan twice a year, it has not tested
                         the entire Disaster Recovery Plan. The testing focuses on
                         verifying that the mainframe operating system and the local
                         area network execute properly on the offsite facility’s system.
                         There has been inadequate preparation to ensure that the RRB


                                            6
    Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                         will be brought back to full business operations in a timely
                         manner.

                         The agency also maintains an Emergency Management
                         Organization Recall Roster that provides data for all personnel
                         assigned to emergency management positions. Auditors
                         identified instances of critical employees who were omitted
                         from the roster. Weaknesses were also noted in the training of
                         emergency personnel.

                         Recommended Action:

                         The report recommended that the RRB management address
                         the possibility of using the Philadelphia facility if the primary
                         recovery facility is unavailable and identify what actions would
                         be necessary. Auditors also emphasized the importance of
                         testing the complete disaster recovery plan and ensuring all
                         emergency personnel have been identified and fully trained.

                         Management concurred with the findings, and plan to complete
                         all corrective actions within six months.



Review of Incident Handling and Reporting at the
Railroad Retirement Board

                         The Federal Information Security Management Act of 2002
                         (FISMA) mandates that the National Institute of Standards and
                         Technology develop standards and guidance for the security of
                         agency information and information systems. FISMA also
                         established a Federal information security incident center,
                         headed by the U.S. Department of Homeland Security’s
                         Computer Emergency Readiness Team (US-CERT), to compile
                         and analyze security incidents and provide assistance to
                         Federal agencies. US-CERT issued an official taxonomy that
                         defines the incident and event categories and reporting time
                         frames for Federal agency reporting.


                                            7
   Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                        The RRB has developed policies and procedures to protect the
                        information system environment, including communication
                        networks and data, from unauthorized use, misuse or abuse by
                        both internal and external threats. The agency’s Computer
                        Security Incident Response Plan (CSIRP) procedures include
                        handling and reporting and the establishment of a Computer
                        Emergency Response Team (CERT) that manages computer
                        security incidents as they occur. Each CERT member has
                        assigned roles and responsibilities for incident handling and
                        reporting.

                        Review results indicated that the RRB’s incident handling and
                        reporting program is generally operating effectively, but the
                        program is not in full compliance with US-CERT standards and
                        guidelines for external reporting. Auditors also identified other
                        areas of program management which should be improved to
                        ensure that the agency’s risk has been minimized: inconsistent
                        adherence to the CSIRP, incomplete internal reporting, the lack
                        of formal policies for anti-virus software and patch
                        management, and the exclusion of previously identified
                        weaknesses of the incident program in the agency’s formal
                        plan of action and milestones for program remediation.

                        Recommended Action

                        Auditors issued recommendations to address the cited
                        weaknesses through training, implementation of controls and
                        development of policies/procedures. Management agreed to
                        implement all corrective actions and provided a timetable for
                        completion.



Solicitation and Award of the DB2 Conversion Contract

                        In FY 2004, the RRB began detailed planning for the
                        conversion from a non-relational database to IBM’s DB2
                        relational database to meet its future technology needs. On


                                           8
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                     September 9, 2005, the agency awarded a firm-fixed price
                     contract to Tiburon Technologies, Inc.

                     OIG auditors conducted this audit to determine if the agency
                     solicited and awarded the contract in accordance with the
                     agency’s contracting policies and procedures and the Federal
                     Acquisition Regulations. They concluded that RRB actions in
                     selecting the contractor followed applicable policies,
                     procedures and regulations. However, they did identify a few
                     weaknesses that required management action.

                     During their review, auditors found indications that the selected
                     contractor may have been experiencing financial problems that
                     could result in delays and/or nonperformance. However, this
                     information had not been found prior to the audit because RRB
                     staff had not conducted a sufficient financial responsibility
                     analysis. Contracting documents also contained incorrect FAR
                     citations.

                     Most government solicitations over $25,000 must be publicized
                     on a Federal government procurement internet site,
                     FedBizOpps.gov. This site permits vendors to search, monitor
                     and retrieve opportunities solicited by the entire Federal
                     contracting community. Auditors identified several errors in the
                     RRB’s solicitation data posted on the site. In addition, the
                     amendments posted on FedBizOpps were approved verbally,
                     not in writing by the appropriate person.

                     Recommended Actions:

                     Auditors recommended that the agency establish appropriate
                     policies and procedures to address the identified weaknesses.
                     Management concurred with all report recommendations and
                     has initiated corrective action.




                                        9
   Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




Reviews to Support Annual Audit of Financial Statements

                        During this semiannual reporting period, OIG auditors
                        conducted reviews to support the annual audit of the RRB’s
                        financial statements that is required by the Accountability of
                        Tax Dollars Act of 2002. To ensure compliance with the Office
                        of Management and Budget’s Bulletin 01-02, Audit
                        Requirements for Federal Financial Statements, auditors
                        assessed compliance with selected provisions of the Railroad
                        Retirement Act (RRA).

                        # Auditors performed tests to determine if the agency had a
                        reasonable basis for the award of initial retirement, spouse and
                        survivor benefits under the RRA during the first quarter of FY
                        2005. Through tests of controls and transactions, they
                        determined that the RRB had a reasonable basis for the award
                        of benefits and had also established effective compliance
                        controls. Auditors’ testing also disclosed no evidence of
                        material non-compliance with the benefit payment provisions of
                        the RRB. However, auditors did detect some weaknesses in
                        supporting documentation as well as one payment error not
                        previously identified for correction by agency control
                        processes.

                        However, several cases with incomplete documentation to
                        support the initial award of benefits were identified and resulted
                        from agency personnel failing to scan paper documents into
                        agency automated systems. The agency is currently
                        developing plans to eliminate the manual transmission aspect
                        of processing.

                        In five of 45 cases reviewed, the earnings records used to
                        compute the benefit amount was either inconsistent with the
                        proof of military service retained by the agency, inconsistent
                        with the automated historical record maintained, or both.




                                           10
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                     Recommended Action:

                     Management concurred with the auditors’ findings and is
                     undertaking a series of initiatives to improve record-keeping for
                     military service data. Program officials will examine the
                     specifics of the audit exceptions to determine if the problems
                     detected by the OIG auditors will be identified, resolved or
                     prevented by new software that is scheduled to be
                     implemented in the future. They will also consider if the
                     changes to the project will be necessary to address problems
                     identified by the auditors.

                     # In the second audit, auditors examined suspensions and
                     terminations of benefits awarded under the RRA to determine if
                     all such actions were performed in compliance with applicable
                     provisions of that law and related agency procedure.

                     Auditors determined that, during the first half of FY 2005,
                     agency processing of suspensions and terminations was
                     generally completed in compliance with law and regulations.
                     The review did identify some exceptions that indicated controls
                     may be inadequate for the minority of cases that require
                     manual handling.

                     A railroad worker must leave his or her job in the railroad
                     industry and formally relinquish the right to future work in the
                     industry to qualify for retirement benefits under the RRA. If the
                     beneficiary returns to railroad service, he or she must notify the
                     RRB, the agency issues a suspension notice and takes action
                     to recover any related overpayment.

                     Review results also indicated that additional controls are
                     needed for cases with assumed effective dates. The RRB
                     receives information that an annuitant’s entitlement to benefits
                     had ended but does not always receive enough information to
                     determine the date from which payments should have been
                     stopped. In those cases, the RRB uses an “assumed effective



                                        11
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                     date” until an actual date is established. Agency procedure
                     requires that action be taken to determine the actual date,
                     recover overpayments, pay benefits due but unpaid and
                     change the beneficiary’s payment date. In their sample,
                     auditors found 21 of 100 cases for which all required agency
                     actions had not been completed. They estimated the
                     monetary impact of unidentified overpayments and
                     underpayments to be approximately $200,000.

                     Recommended Action:

                     Auditors recommended that agency staff review the procedures
                     for handling correspondence from the field service offices.
                     They also advised management to determine controls and
                     actions to ensure full adjudication of suspension cases
                     involving determination of a correct effective date, and to
                     reduce erroneous closure of cases terminated with an assumed
                     effective date. (Similar issues were identified by investigative
                     activities. See page 15.)

                     Management agreed to take action on all recommendations
                     contained in the report.

                     # The third review studied RRB actions to deny or cancel
                     applications for benefits under the RRA. Applicants are
                     required to demonstrate they meet the minimum requirements
                     for the type of annuity for which they have applied. If an
                     individual is not eligible, the claim is denied and the agency
                     notifies the applicant of the reason for the denial. Applicants
                     may request that a decision be reversed through the appeals
                     process. In other cases, an individual may file an application
                     and later withdraw the claim for benefits. The applicant must
                     notify the agency in writing that he/she does not wish to pursue
                     the claim for benefits.

                     Auditors examined application cancellations and denials during
                     the first quarter of FY 2005 for compliance with law, regulation
                     and applicable procedure. Again, they determined that the


                                        12
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                     agency generally processed these actions in compliance with
                     the RRA and related regulations, but controls need to be
                     strengthened.

                     The RRB has implemented a computer based imaging system
                     that stores most documentation accumulated during the claims
                     adjudication process. Information is entered into the system
                     either by scanning paper documents into a compatible format
                     or electronically passing computer generated documents to the
                     system.

                     During their sample review, auditors identified applications for
                     which the supporting documentation was incomplete. In some
                     cases, applicant statements had been retained in the paper
                     files of a field office, not forwarded to headquarters for imaging.
                     Three denial letters had not been imaged because they were
                     erroneously retained in a temporary electronic authorization
                     folder.

                     Recommended Action:

                     Missing documentation makes it more difficult to determine the
                     accuracy of adjudicative actions, increases the risk of
                     adjudicative errors, and weakens agency accountability and
                     credibility. The RRB’s Office of Programs reviewed the
                     exceptions identified by the auditors and reported that they had
                     already implemented additional controls to ensure (1)
                     electronically generated correspondence is forwarded to the
                     imaging system after authorization, and (2) field office
                     personnel forward cancellation requests to headquarters for
                     imaging.




                                        13
   Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




MANAGEMENT DECISIONS AND IMPLEMENTATION

  The Office of Inspector General maintains the open audit follow-up system to track
  the status of corrective actions for all audit recommendations. Office of Management
  and Budget Circular No. A-50 (Revised) and the Inspector General Act Amendments
  of 1988 require the reporting of management decisions and corrective actions for all
  audit recommendations.



  Management Decisions for Recommendations



  Requiring a management decision on April 1, 2006                                         0

  Pending management decisions for new recommendations                                     0

  Management decisions for previous recommendations                                        0

  Recommendations pending a management decision
  on September 30, 2006                                                                    0



  Corrective Actions

  Recommendations requiring action on April 1, 2006                                      138

  Recommendations issued during this period                                               29

  Corrective actions completed during the period                                         - 31

  Final actions pending on September 30, 2006                                            136




                                           14
 Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




OFFICE OF INVESTIGATIONS


                      The Office of Investigations (OI) focuses on RRB benefit
                      program fraud. OI's primary objective is to identify and
                      investigate cases of waste, fraud and abuse in RRB programs
                      and refer them for prosecution and monetary recovery action.
                      Through its investigations, OI also seeks to prevent and/or
                      deter program fraud. In order to maximize the effect of its
                      resources, OI continues to pursue cooperative investigative
                      activities and coordination with other Inspectors General and
                      law enforcement agencies, which include the Social Security
                      Administration-Office of Inspector General, the Office of
                      Personnel Management-Office of Inspector General, the
                      Federal Bureau of Investigation, the U.S. Secret Service, the
                      Internal Revenue Service, and the Postal Inspection Service.



 Systemic Issues and Suggestions for Improvement Identified
 During Investigation

                      As a result of investigative work conducted during this reporting
                      period, OI submitted a number of recommendations to agency
                      managers concerning program processes and records
                      management operations. A summary of the recommendations
                      follow.

                      # The RRB referred a matter for investigation in which it was
                      alleged that a retirement annuitant had failed to report work and
                      earnings which would have affected his eligibility. An OIG
                      investigator reviewed records maintained by a District Office
                      and found that the annuitant had, in fact, reported that he was




                                         15
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                     currently working. The District Office, however, had not
                     forwarded the information to RRB headquarters. OI
                     recommended that the agency establish a policy requiring
                     District Offices to forward such information to headquarters and
                     included it with the imaged records for the appropriate
                     annuitant. Agency officials are reviewing current procedures to
                     determine the efficacy of implementing this recommendation.

                     # Based on an investigation of an allegation that an agency
                     employee had fraudulently directed Medicare premium refunds
                     due to RRB annuitants to herself and a family member, OI
                     made five recommendations concerning policy and procedural
                     matters.

                     The recommendations addressed computer security policies
                     and the employee notifications regarding those policies, the
                     agency’s payment thresholds requiring a second level
                     authorization for processing, and a requirement that the agency
                     conduct background updates for employees who are assigned
                     or reassigned to positions involving disbursement of funds with
                     little or no oversight. OI also recommended that the agency
                     maintain electronic records for automated processes.
                     Investigation disclosed that the agency cannot track automated
                     transactions to identify employees who are responsible for
                     them. Program officials are conducting internal reviews to
                     determine the feasibility of implementing the policy and
                     procedure changes.

                      Finally, OI recommended that the agency issue a reminder to
                     all employees about the importance of safeguarding their
                     system password. The agency subsequently issued the
                     recommended reminder.

                     # Based on fraud trends related to the RRB disability and
                     retirement programs, OI recommended changes to the
                     certification and reporting requirement sections for RRB Forms
                     AA-1 (the application filed by railroad employees for a
                     retirement or disability annuity) and AA-3 (the application filed


                                        16
    Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                           by a railroad employee’s survivor for an annuity). OI
                           recommended that these sections be amended to provide more
                           specific information to the applicant concerning information that
                           he/she must report if awarded an annuity. The agency’s Board
                           Members are currently reviewing these proposed changes.


INVESTIGATIVE ACCOMPLISHMENTS

                                                      04/01/06 -
                                                      09/30/06              FY 2006

 Convictions                                                      36                      62

 Civil Judgements                                                 27                      43

 Indictments/Informations                                         19                      35

 Investigative Recoveries                               $   160,634            $   636,859

 Restitutions and Fines                                 $ 1,407,899            $ 2,261,781

 Civil Damages and Penalties                            $   620,000            $   819,369

 Potential Economic Loss Prevented (PELP)               $   253,121            $   506,730

 Community Service Hours                                       1,290                 8,260

 Disciplinary/Administrative Actions                               0                       0

 Civil Complaints                                                 14                      18
 Criminal Complaints                                               0                       0

 Arrests                                                           0                       1

 Subpoena Service:
  Inspector General                                               12                      22
  Federal Grand Jury                                              57                      94
  Trial                                                            0                      10

 U.S. Attorney Referrals                                          91                      260




                                            17
       Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




INVESTIGATIVE CASELOAD DATA

During this semiannual period, OI opened 210 investigations and closed 151 cases. The
major sources of case referrals are illustrated below.


                                                         RRB Field Offices - 14%



                                                               OIG Developed - 11%



   RRB Headquarters - 53%


                                                                    Hotline - 17%




                                                      Others - 5%




OI's current caseload totals 457 criminal matters, representing approximately $14 million
in fraud against the RRB.

                                                           Disability -226 cases
                                                               $6,830,000




                                                                       Sickness - 11 cases
  Unemployment - 70 cases                                                   $55,000
        $429,000
                                                                    Spouse/Dependent - 27 cases
                                                                         $866,000

                                                                Representative Payee - 21 cases
                                                                       $205,000
                   Retirement - 82 cases                Other - 20 cases
                        $5,104,000                       $591,000




                                               18
   Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




DISTRIBUTION OF CASES

           The Office of Investigations (OI) conducts its investigations throughout the
           United States in response to complaints or allegations regarding violations
           of Federal law.


           The map below indicates the number of open investigations that OI
           currently has in each state; there are no open cases in Alaska or Hawaii.
           One additional investigation is underway in Canada.




                                           19
    Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




REPRESENTATIVE INVESTIGATIONS


Retirement Benefit Investigations

                         RRB retirement fraud typically involves the theft and fraudulent
                         cashing of U.S. Treasury checks, or the illicit conversion of U.S.
                         Treasury electronic fund transfers, by someone other than the
                         authorized RRB annuitant. During this reporting period, OI
                         obtained four convictions and four civil judgements for
                         retirement fraud. The defendants in these cases received
                         sentences totaling 11 years probation, one year house arrest
                         and were ordered to perform 300 hours of community service.
                         They were also ordered to pay $184,512 in restitution, $225 in
                         fines, $97,661 in damages and $5,000 in penalties.

                         OI routinely receives referrals from the RRB’s Debt Recovery
                         Division that involve the fraudulent receipt of RRB retirement
                         annuity payments, usually by a relative of a deceased
                         annuitant.

                         Examples of recent retirement cases follow.

     Son of Deceased Annuitant Ordered to Repay $115,610

                         The RRB's Pittsburgh District Office attempted to deliver a
                         congratulatory centenarian letter to an annuitant in recognition
                         of her 100th birthday. RRB staff were unsuccessful and mailed
                         a letter to the annuitant asking for someone to contact them to
                         arrange for delivery of the letter.

                         The annuitant's son subsequently returned an annuity check
                         issued to his mother and notification that she had died on
                         November 23, 2003. Efforts to contact the son concerning his
                         mother's death were also unsuccessful. A certified letter was
                         then issued to him but was returned as being refused. Copies
                         of the mother's annuity checks for four months in 2003 were


                                            20
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                     obtained and contained the signatures of both the annuitant
                     and her son.

                     When interviewed by OI special agents, the son admitted that
                     his mother had, in fact, died on June 23, 1987. He confessed
                     to forging his mother's name on all RRB monthly annuity
                     checks and to depositing them into his personal account.

                     He was convicted and sentenced to five years probation, 16
                     months of electronically monitored home confinement, 500
                     hours of community service, a $100 special assessment fee
                     and ordered to pay $115,610 in restitution to the RRB. The
                     subject was ordered to make monthly installments of not less
                     than 10% of his gross monthly income with a minimum
                     payment of at least $50.

     Theft of Missing Annuitant’s Benefits by a Former Neighbor

                     The RRB's Birmingham, AL District Office (DO) staff also
                     encountered difficulty when they attempted to deliver a
                     centenarian letter. After making numerous telephone calls and
                     visits to the annuitant's home, the DO staff referred the case to
                     the OIG for investigation.

                     Relatives of the annuitant advised OI special agents that they
                     had not seen the annuitant since February 2000 when she was
                     released from a nursing home and transported to a private
                     residence in Jasper, AL. The annuitant, who would currently be
                     105 years old and her 83 year old daughter have been missing
                     for years.

                     Investigation by OI agents revealed that a former neighbor of
                     the women had established a joint bank account using their
                     names and her own name. She submitted a false statement to
                     the RRB on July 17, 2002 to have the annuitant's benefits
                     electronically deposited to the new joint account. She also later
                     contacted the Pittsburgh, PA District Office and impersonated
                     the annuitant to have RRB benefits reinstated.

                                        21
     Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                          The neighbor was indicted for submitting false statements to
                          the RRB and wire fraud. After pleading guilty, she was ordered
                          to pay restitution in the amount of $10,264 to the RRB, serve
                          six months house arrest and three years probation.

                          OI is continuing to assist the Alabama Bureau of Investigation
                          with investigation of the disappearance of the two women.

          Failure to Report Mother’s Death Results in Fraudulent Receipt
          of $144,529

                          OI was contacted by the RRB's Covina, CA District Office
                          concerning possible fraud. The OI investigation identified an
                          annuitant's daughter who had failed to report her mother's
                          death in June 1991. The mother had been the recipient of
                          annuity benefits based on her husband's railroad service.

                          The daughter's failure to report her mother's death resulted in
                          the fraudulent negotiation of RRB annuity checks totaling
                          $144,529 from July 1991 through August 2004.

                          When interviewed by OI agents, the subject acknowledged that
                          she had failed to report her mother's death to the RRB, and that
                          she knew that all payments should have been returned. On
                          May 10, 2006, she was convicted and ordered to make
                          restitution of $144,529 to the RRB, ordered to serve six months
                          house arrest and five years probation.


Disability Investigations

                          The OIG also conducts fraud investigations relating to the
                          RRB's disability program, which typically involves larger
                          financial amounts and more sophisticated schemes. An
                          individual who receives a disability annuity is restricted to
                          earning not more than $400 in one month. An earnings cap of
                          $4,999 per year also applies. Disability annuitants must report
                          all work activity to the RRB.


                                             22
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                     During this reporting period, OI obtained 16 convictions and five
                     civil judgements for disability fraud. The defendants in these
                     cases received sentences totaling 30 days imprisonment, 36½
                     years probation, 1½ years suspended sentences, two years
                     house arrest, and were ordered to perform 250 hours of
                     community service. They were also ordered to pay $994,835 in
                     restitution, $373,761 in damages, and $90,400 in fines. The
                     RRB will recover an additional $133,123 as a result of disability
                     fraud investigations concluded during this reporting period.
                     Descriptions of several cases follow.

     Attorney Conspires to Hide Disability Annuitants’ Wages

                     OI initiated investigation of a Minnesota attorney as the result of
                     an investigation of three RRB disability annuitants who were
                     employed by the attorney and hid their earnings from the
                     agency for seven years. It appeared that the attorney had
                     conspired with the annuitants to hide their wages.

                     Subsequent investigation revealed that the attorney was the
                     designated legal counsel for various unions connected to the
                     railroad industry. The attorney hired the annuitants to obtain
                     new client referrals and conduct investigations related to
                     railroad injury settlements. The law firm fraudulently reported
                     wages for two of the annuitants under the social security
                     numbers of their respective wives. Records also indicated that
                     the law firm had purchased a parcel of land and a vehicle for
                     the annuitant at an estimated value of $80,000.

                     The OI investigation disclosed that, over a seven year period,
                     the third annuitant received approximately $130,000 from the
                     attorney which was used to pay the annuitant’s personal
                     expenses such as property taxes, automobile repairs and air
                     fare costs for a family vacation. None of these funds were
                     reported as compensation for the annuitant.

                     The three annuitants were previously convicted for their
                     participation in the scheme. The attorney was ordered to pay


                                        23
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                     restitution of $261,878 to the RRB, fined $86,000, placed under
                     six months house arrest and ordered to serve three years
                     probation. In addition, as part of his plea agreement, the
                     attorney has agreed to issue a public statement to be published
                     in major newspapers and rail industry trade publications in
                     which he acknowledges his role in this conspiracy and solicits
                     cooperation with the OIG in its investigation of similar fraud
                     schemes.

     Airline Mechanic Repays $87,007 to the RRB

                     OI initiated this investigation based upon a referral from the
                     RRB concerning a disability annuitant in California. A check
                     with the Social Security Administration (SSA) indicated the
                     subject received RRB disability benefits while wages were
                     reported to SSA by Alaska Airlines for the annuitant.

                     Records revealed that the annuitant earned in excess of the
                     earnings restrictions on his annuity. His employment as a
                     mechanic with Alaska Airlines from October 2000 through May
                     2004 resulted in his fraudulent receipt of $87,007 in RRB
                     disability benefits. Despite numerous RRB mailings and
                     requests for employment information, the subject failed to notify
                     the agency of his earnings.

                     He was subsequently convicted and made full restitution to the
                     RRB prior to his sentencing. He was also ordered to serve
                     three years probation.

     Annuitant Reported Earnings Under His Wife’s
     Social Security Number

                     OI initiated a case in Georgia based upon a referral from the
                     RRB which indicated that a disability annuitant was overpaid
                     $9,428 in benefits based on his self-employment earnings
                     reported to the Social Security Administration.




                                        24
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                     OI agents determined that the annuitant had been self-
                     employed since January 1998. The annuitant operated a title
                     research company and performed 40 hours of work per week
                     while collecting disability benefits from the RRB. The subject
                     stated he reported his income on his Federal income taxes as
                     his spouse's self-employment income. However, when the
                     RRB contacted him, he stated he had no income and his wife's
                     self-employment income had been incorrectly applied to him.

                     OI agents noted that the original overpayment calculation was
                     computed using retirement provisions instead of disability
                     provisions, and requested the RRB to prepare a corrected
                     overpayment calculation. The subject had earned $190,543
                     from 1998 through 2005 that he reported under his wife's social
                     security number. As a result, he had received $124,441 in
                     disability benefits to which he was not entitled.

                     On July 25, 2006, he pleaded guilty, was convicted and
                     sentenced to five years probation, fined $3,000, received a
                     special assessment of $25, and ordered to complete 200 hours
                     of community service. He agreed to make monthly payments
                     of $500 to the RRB or the agency can withhold $1,000 each
                     month from any disability or retirement annuity he is receiving,
                     until his debt of $124,441 is paid in full.

     Car Dealer Ordered to Repay $133,234

                     The RRB’s Disability, Sickness and Unemployment Benefits
                     Division referred a case to OI concerning a self-employed
                     annuitant in Tennessee who was identified as having income in
                     excess of the disability earnings limitations.

                     OI special agents conducted surveillance and posed as
                     potential buyers at the annuitant’s car dealership to confirm that
                     he was actively involved in sales operations. Even though he
                     was actively involved in the operation of the dealership, the
                     annuitant attributed all personal income from the business to
                     his wife. From August 1999 through August 2004, the subject


                                        25
    Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                         received $133,234 in disability benefits to which he was not
                         entitled. He and his wife co-owned and operated a used
                         vehicle dealership and supplied false information to the RRB
                         concerning his work activities and earnings.

                         Since the annuitant and his wife were co-owners of the
                         dealership, the RRB attributed half the personal income from
                         the business to each of them, resulting in the annuitant
                         exceeding his disability earnings limitations for the years of
                         2000-2004.

                         In April 2006, the subject was convicted and ordered to repay
                         all disability annuities to which he was not entitled and serve
                         one year probation.


Unemployment and Sickness Insurance Investigations

                         Unemployment Insurance (UI) and Sickness Insurance (SI)
                         benefit fraud involves individuals claiming and receiving UI or
                         SI benefits while working and receiving wages from an
                         employer, in violation of Federal law. OI receives the majority
                         of these cases for followup investigation from the RRB’s
                         Disability, Sickness and Unemployment Benefits Division as a
                         result of information developed from state wage matching
                         programs. These programs match RRB annuitants with
                         individuals who also had wages reported to the state during the
                         same period of time.

                         During this reporting period, OI obtained 14 convictions and 18
                         civil judgements for UI and SI fraud. Defendants in these cases
                         received, in the aggregate, two years imprisonment, 28½ years
                         probation, 16 months house arrest and were directed to
                         perform 690 hours of community service. They were ordered to
                         pay $74,488 in restitution, $102,710 in civil damages, $9,075 in
                         fines, and $40,768 in civil penalties. The RRB will also be able
                         to initiate administrative action to recover an additional $27,511
                         as a result of OI investigations.



                                            26
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006


                     Examples of cases completed this reporting period follow.

     Fitness Studio Employee Found Guilty in the Theft of $9,077

                     A referral from the RRB indicated that a claimant was working
                     while collecting unemployment insurance benefits on the same
                     days. Special agents determined that the subject was receiving
                     UI benefits while employed by the Fitness Guru Studio. The
                     subject had failed to report his employment to the RRB and
                     fraudulently collected $9,077 in unemployment benefits from
                     the agency. When interviewed, he admitted to felony false
                     claims and entered into a settlement agreement to pay the U.S.
                     Government $13,616; the RRB will receive $9,077.

     Massachusetts Annuitant Ordered to Repay $7,560 to the RRB

                     A computer wage match with the State of Massachusetts
                     identified an annuitant who was receiving unemployment and
                     sickness benefits while fully employed with the City of Boston.
                     The subject fraudulently submitted 15 false claims and
                     collected benefits on 135 days from August 2004 through
                     March 2005. The U.S. Attorney’s Office for the District of
                     Massachusetts entered into a settlement agreement that
                     ordered the subject to pay $8,000; the RRB will receive the
                     original fraud loss of $7,560.

     Pennsylvania State Wage Computer Match Identifies
     Fraudulent Claimant

                     A wage match with the State of Pennsylvania identified an
                     annuitant who was receiving benefits on the same days that
                     she was employed by a non-railroad employer. OI special
                     agents found that the annuitant was employed as a health aide
                     for a behavioral health center in West Hampton, NJ while
                     collecting RRB unemployment benefits. She submitted 17 false
                     claims to fraudulently receive $3,781 in benefits. A consent
                     judgement against the subject ordered her to pay $12,000,
                     $3,781 to the RRB. The Department of Justice will receive the
                     remaining $8,219.


                                        27
   Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




CIVIL ENFORCEMENT RESULTS

                        In certain cases for which the Department of Justice (DOJ) has
                        declined to pursue criminal prosecution, OI pursues civil action
                        in order to obtain a judicial order for recovery of funds
                        fraudulently obtained by annuitants or claimants. These civil
                        actions are typically brought under the provisions of Title 31,
                        Sections 3729-3733, United States Code, The Civil False
                        Claims Act. This statute allows the government to recover up
                        to triple damages as well as $5,000 to $10,000 for each false
                        claim submitted. Some of the civil actions are pursued under
                        the DOJ’s Affirmative Civil Enforcement (ACE) program which
                        provides a fast track prosecution mechanism under the Civil
                        False Claims Act.

                        During this reporting period, a total of 27 civil judgements were
                        entered by Federal District courts which will result in $620,000
                        being repaid to the government when the funds are collected.

                        The Department of Justice frequently obtains double damages
                        through these civil false claims prosecutions. The judgements
                        obtained in these cases also provide the agency with an
                        efficient and effective basis to pursue their collection activities.

                        The ACE Program continues to provide an efficient means to
                        address fraud against agency programs, particularly where the
                        fraud losses are below the financial guidelines for criminal
                        prosecution. It also is an effective way to return fraud losses to
                        the RRB's trust funds and create a deterrent against future
                        fraud.




                                           28
Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




                           HOTLINE CALLS

The Office of Inspector General established its Hotline to receive complaints
concerning suspected fraud, waste and abuse in RRB programs and operations.
The Hotline provides an open line of communication for individuals to report
suspected criminal activity, conflict of interest, mismanagement, and waste of RRB
funds.


                                                              04/01/06
                                                              09/30/06        FY 2006


Total Contacts: (Telephone Calls and Letters)                        578              1247


Referred to:


RRB-OIG, Office of Investigations                                     47                69


RRB-OIG, Office of Audit                                                 0               1


RRB Bureaus/Offices                                                  198               399


Other Federal Agencies                                                18                44


 Local or State Agency                                                   1               1


RRB Medicare Carrier/Durable Medical Equipment
Regional Carriers                                                        1               2


Other (misdirected calls, follow-up calls to agents,
etc.)                                                                295               684


Calls for which there was insufficient information
to substantiate an allegation or to make a referral                   18               47



                                        29
 Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




LEGISLATIVE &
REGULATORY REVIEW

                      The Inspector General Act requires the Inspector General to
                      review existing and proposed legislation and regulations
                      relating to the programs and operations of the agency, and to
                      make recommendations in the semiannual report concerning
                      the impact on the economy and efficiency of the agency’s
                      administration of its programs and on the prevention of fraud
                      and abuse.

                      During this reporting period, the RRB issued final regulations to
                      include video teleconferencing as an option for hearings of
                      appeals under the RRA and RUIA. Prior to the amended
                      regulation, agency regulations required the hearings officer to
                      hold hearings either in person or by telephone conference call.

                      The RRB also amended its regulations to allow railroad
                      employers to electronically file requests for reconsideration of
                      initial decisions under the RUIA. Prior to this amendment,
                      reconsideration requests were required to be submitted in
                      writing. The RRB’s regulatory amendments improve the
                      economy and efficiency of its programs and operations.




                                         30
  Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




APPENDIX A


REPORTS ISSUED

       #	      Review of Compliance with Provisions of the Railroad Retirement Act
               Governing the Initial Award of Benefits, April 12, 2006


       #	      Review of the Termination and Suspension of Benefits Paid Under the
               Railroad Retirement Act, May 24, 2006


       #	      Review of Actions to Deny or Cancel Applications for Benefits Under
               the Railroad Retirement Act, July 18, 2006


       #	      Evaluation of the Railroad Retirement Board’s Disaster Recovery Plan,
               August 14, 2006


       #	      Review of Incident Handling and Reporting at the Railroad Retirement
               Board, August 24, 2006


       #	      Audit of the Solicitation and Award of the DB2 Conversion Contract,
               September 26, 2006


       #	      Fiscal Year 2006 Evaluation of Information Security at the Railroad
               Retirement Board, September 27, 2006




                                          31
     Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




APPENDIX B
       INSPECTOR GENERAL ISSUED REPORTS WITH

                 QUESTIONED COSTS


                                                            Questioned         Unsupported
                                            Number            Costs               Costs

A. For which no management decision had
been made by April 1, 2006                        0              0                   0


B. Which were issued from April 1 through
September 30, 2006                                0              0                   0


Subtotals (A + B)                                 0              0                   0


C. For which a management decision was
made from April 1 through September 30,
2006                                              0              0                   0


(i) dollar of disallowed costs                                   0                   0


(ii) dollar value of costs not disallowed                        0                   0


D. For which no management decision had
been made by September 30, 2006                   0              0                   0


Reports for which no management decision
was made within six months of issuance            0              0                   0




                                             32
     Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




       INSPECTOR GENERAL ISSUED REPORTS WITH

       RECOMMENDATIONS THAT FUNDS BE PUT TO 

                    BETTER USE 



                                                          Number             Dollar Value


A. For which no management decision had been
made by April 1, 2006                                       0                      0


B. Which were issued from April 1 through
September 30, 2006                                          1                $    200,000


Subtotals (A + B)                                           1                 $   200,000


C. For which a management decision was made
from April 1 through September 30, 2006                     1


(i) dollar value of recommendations that were
agreed to by management                                                       $ 200,000


(ii) dollar value of recommendations that were not
agreed to by management                                                            0


D. For which no management decision had been
made September 30, 2006                                     0


Reports for which no management decision was
made within six months of issuance                          0




                                                     33
  Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




APPENDIX C
REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES
   The FY1999 appropriations language for this office requires the reporting of
   additional information concerning actual collections, offsets and funds put to better
   use achieved as a result of Inspector General activities.

   Office of Audit
               Funds to be put      Funds Agreed         Receivables                      Recoveries
    Report      to better use       by Management        Established        Waivers         to date

    99-03        $        50,850     $          50,850    $      50,580     $50,490     $      360
    99-14                 83,000               83,000*           34,423                     30,584
    99-16             48,000,000           48,000,000                                    8,000,000
    99-17             11,000,000            11,000,000                                   1,604,545**
    00-16                235,000              235,000                                     253,846***
    04-06                821,000              821,000          629,688                    585,282
    04-10                400,000              400,000
    05-03              1,800,000             1,800,000
    05-06                 10,000                 10,000
    05-07              1,070,000             1,070,000
    05-10              2,600,000             2,600,000
    06-04                257,000               257,000
    06-06                200,000               200,000
   * This figure includes monies owed to the agency and overpayments which must be refunded.
   ** This figure represents case corrections that resulted in receivables, annuitant payments,
      employer tax credits and liabilities.
   ***This figure represents returned payments credited to debtor accounts.

   Office of Investigations

   Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:

     FY 1999                                                            $      855,655

     FY 2000                                                                1, 038,134

     FY 2001                                                                   990,356

     FY 2002                                                                   785,843

     FY 2003                                                                   947,876

     FY 2004                                                                   646,273

     FY 2005                                                                   844,183

     FY 2006                                                                 1,281,680



                                                34
       Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




APPENDIX D
RRB MANAGEMENT REPORTS
(The information contained in this section has been provided by RRB
management.)


             MANAGEMENT REPORT ON FINAL ACTION

            ON AUDITS WITH DISALLOWED COSTS FOR

        THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2006




                                                               Number                     Disallowed Costs

 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                          1                          $ 2,835*

 B. Audit reports on which management
 decisions were made during the period.                            0                             0

 C. Total audit reports pending final action during
 the period.                                                       1                           2,835

 D. Audit reports on which final action was taken
 during the period.                                                0                             0

 1. Recoveries

    (a) Collections
    (b) Property
    (c) Other

 2. Write-offs                                                     0                             0


 3. Total of 1 and 2                                               0                             0


 E. Audit reports needing final action at the end
 of the period.                                                    1                          $ 2,835



* Identified in Audit Report 05-09, “Review of Internal Control Over Budget Execution.”




                                                      35
      Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006



 MANAGEMENT REPORT ON FINAL ACTION ON AUDITS WITH

RECOMMENDATIONS TO PUT FUNDS TO BETTER USE FOR THE

    SIX MONTH PERIOD ENDING SEPTEMBER 30, 2006



                                                                                         Funds to be put
                                                             Number                        to better use
 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                        6                        $ 4,066,996 *

 B. Audit reports on which management
 decisions were made during the period.                          2                              202,100 **

 C. Total audit reports pending final action during
 the period.                                                     8                             4,269,096

 D. Audit reports on which final action was taken
 during the period.

 1. Value of recommendations implemented.                        1                              529,996

 2. Value of recommendations that management
 concluded should not or could not be
 implemented.                                                    0                                    0

 3. Total of 1 and 2.                                            0                              529,996

 E. Audit reports needing final action at the end
 of the period.                                                  7                         $   3,739,100


* Comprised of the following amounts: $529,996 from Audit Report 01-11, “Review of the Quality of the Debt
Recognition and Collection Process for Railroad Retirement Act Overpayments,” $400,000 from Audit Report
04-10, “Review of Spouse Annuity Work Deductions at the Railroad Retirement Board,” $1,800,000 from
Audit Report 05-03, “Evaluation of the RRB’s Processing of Disability Earnings Cases,” $10,000 from Audit
Report 05-06, “Review of Compliance with the Prompt Payment Act,” $1,070,000 from Audit Report 05-07,
“Evaluation of Survivor Annuity Work Deductions at the Railroad Retirement Board,” and $257,000 from Audit
Report 06-04, “Annuity Deductions for Retired Employees Working After Full Retirement Age.”

**Includes $2,100 from Audit Report 06-05, “Review of Compliance with Provisions of the Railroad Retirement
Act Governing the Initial Award of Benefits,” and $200,000 from Audit Report 06-06, “Review of the
Termination and Suspension of Benefits Paid Under the Railroad Retirement Act.”




                                                      36
       Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING 

               AS OF SEPTEMBER 30, 2006
                                                         Funds to
                                       Disallowed        be put to           Reason action has not
         Report               Date       Costs           better use             been completed

Review of Quality            1/22/97     None              None       The remaining recommendation will be
Assurance Activities                                                  addressed in conjunction with efforts to
(97-06)                                                               improve calculation and reporting of
                                                                      performance measures.

Review of Non-Priority       3/13/97     None              None       The Office of Programs plans to
Correspondence                                                        develop an action plan to track
Handling (97-09)                                                      correspondence in FY07 after needed
                                                                      infrastructure is in place.

Information Systems          6/28/00     None              None       The agency hopes to close out the
Security (INFOSEC)                                                    only remaining open recommendation
Assessment Report                                                     early in FY07.

Fiscal Year 2000             2/23/01     None              None       The Bureau of Information Services is
Financial Statement                                                   in the process of developing
Audit (01-03)                                                         procedures related to recently
                                                                      purchased help-desk services and
                                                                      tools.

Site Security                7/20/01     None              None       The Bureau of Information Services
Assessment for the                                                    will close the last open
Office of Inspector                                                   recommendation by completing
General (Blackbird #1)                                                migration of all applications to new
                                                                      servers in FY07.

Security Controls            8/17/01     None              None       The Bureau of Information Services
Analysis for the Office of                                            has closed 35 recommendations and
Inspector General                                                     should close out the remaining 3 in
(Blackbird #2)                                                        FY07.

Review of Information         2/5/02     None              None       The Bureau of Information Services
Security at the Railroad                                              has closed 19 recommendations and
Retirement Board                                                      is working on the remaining 9.
(02-04)

Fiscal Year 2002             8/27/02     None              None       The agency awarded a new contract
Evaluation of                                                         for offsite disaster recovery services
Information Security at                                               and is developing documentation for
the RRB (02-12)                                                       the OIG.




                                                    37
       Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006



  MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

  OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

              AS OF SEPTEMBER 30, 2006


                                                       Funds to
                                     Disallowed        be put to           Reason action has not
       Report              Date        Costs           better use             been completed

Evaluation of the Self-   12/27/02     None              None       The Bureau of Information Services
Assessment Process                                                  has used automated software tools for
for Information                                                     some assessments, and is exploring
System Security                                                     contract support for more
 (03-02)                                                            comprehensive reviews of other
                                                                    systems in FY07.

Evaluation of the RRB     12/27/02     None              None       The Bureau of Fiscal Operations
E-government                                                        closed nine recommendations and is
Initiative: RUIA                                                    working with the Department of
Contribution Internet                                               Treasury to close the remaining two.
Reporting and
Payment (03-03)

Inspection of             3/20/03      None              None       The Office of Programs has reviewed
Unverified Records in                                               all 20,000 records, with corrective
the RRB’s                                                           actions and systems changes targeted
Employment Data                                                     for completion in FY07.
Maintenance System
(03-06)

Review of the RRB’s        9/8/03      None              None       The Bureau of Information Services will
PIN/Password System                                                 establish procedures in conjunction
for On-Line                                                         with action taken to close 03-10.
Authentication
(03-09)

Review of the              9/8/03      None              None       The Bureau of Information Services is
Systems Development                                                 using new project management
Life Cycle for End-                                                 software which should help close the
User Computing                                                      remaining recommendations in FY07.
(03-10)

RRB’s Railroad            5/12/04      None              None       The Office of Programs plans to finish
Retirement Act                                                      a review of sampled items and close
Document Imaging                                                    the last recommendation early in FY07.
Process: Reliability of
Images from Scanned
Paper Documents
 (04-02)




                                                  38
       Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006



  MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

  OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

              AS OF SEPTEMBER 30, 2006

                                                       Funds to
                                     Disallowed        be put to           Reason action has not
        Report             Date        Costs           better use            been completed

Review of Accounts        7/29/04      None              None       Use of an automated payment system
Receivable Established                                              by remaining employers in FY07
Under the Railroad                                                  should close the last two
Unemployment                                                        recommendations.
Insurance Act (04-06)

Review of Mainframe        9/7/04      None              None       The Bureau of Information Services
Access Controls at the                                              hopes to complete action on the
Application Level ­                                                 remaining two recommendations by
Federal Financial                                                   the end of FY07.
System (04-07)

Review of Mainframe        9/7/04      None              None       The Bureau of Information Services
Access Controls at the                                              hopes to close the final
Application Level ­                                                 recommendation by the end of FY07.
RRB Developed
Applications Controlled
by ACF2 and IDMS
(04-08)

Review of Mainframe        9/9/04      None              None       The agency plans to complete action
Access Controls at the                                              on the remaining two
Application Level ­                                                 recommendations by the end of FY07.
Program Accounts
Receivable System
(04-09)

Review of Spouse          9/30/04      None            $400,000     Adjustments on all identified cases
Annuity Work                                                        should be completed early in FY07.
Deductions at the RRB
(04-10)

FY2004 Evaluation of      9/30/04      None              None       The Bureau of Information Services
Information Security at                                             has closed seven of nine
the RRB (04-11)                                                     recommendations, and plans to
                                                                    complete the remaining two early in
                                                                    FY07.

FY2004 Financial          10/25/04     None              None       Agency units have closed 12 of the 14
Statement Audit, Letter                                             recommendations, and hope to
to Management                                                       complete action on the remaining
 (05-01)                                                            ones during FY07.

Evaluation of the         2/11/05      None            $1,800,000   Programs staff is in the process of
RRB’s Processing of                                                 reviewing/adjusting cases from 2001
Disability Cases                                                    and plans to complete all action in
(05-03)                                                             FY08.


                                                  39
       Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006



  MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

  OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

              AS OF SEPTEMBER 30, 2006


                                                       Funds to
                                     Disallowed        be put to           Reason action has not
         Report             Date       Costs           better use            been completed

Review of Internal         5/5/05      None              None       The Chief Actuary is working with the
Control Over the                                                    agency’s Management Control
Actuarial Projection                                                Review Committee to improve policies
Process (05-04)                                                     and procedures.

Review of Customer         5/17/05     None              None       The agency adopted an administrative
Service Performance                                                 circular that contains procedures for
Measures for Timeliness                                             the collection and validation of
of Initial Railroad                                                 performance information, and
Retirement Annuity                                                  changes to computer systems will
Payments (05-05)                                                    also improve reliability.

Review of LAN, LAN         6/7/05      None              None       This contractor-prepared confidential
Security Scan and Web-                                              report contained 45
based Applications                                                  recommendations. To date,
(DSD)                                                               Information Services has addressed
                                                                    almost half of them.

Review of Compliance       6/15/05     None             $10,000     The Bureau of Fiscal Operations
with the Prompt                                                     closed five recommendations, and the
Payment Act (05-06)                                                 other four should be closed in FY07.

Evaluation of Survivor     7/14/05     None            $1,070,000   The Office of Programs is developing
Annuity Work                                                        procedures for rejected cases that
Deductions at the RRB                                               should close the last recommendation
(05-07)                                                             during the first half of FY07.

Review of Access           7/18/05     None              None       The Bureau of Information Services
Controls in the End-User                                            has addressed 5 of 15
Computing General                                                   recommendations in this confidential
Support System (05-08)                                              report, and the rest should be closed
                                                                    in FY07.

Review of Internal         9/6/05      $2,835            None       The Bureau of Fiscal Operations has
Control Over Budget                                                 addressed seven recommendations,
Execution (05-09)                                                   and developed procedures that should
                                                                    close the remaining two.

Review of Employee         9/19/05     None              None       The Office of Programs will release
Work Deductions Prior                                               revised procedures to address the
to Full Retirement Age                                              remaining open recommendation
(05-10)                                                             during the first half of FY07.

Fiscal Year 2005           9/28/05     None              None       Information Services is developing a
Evaluation of                                                       project plan, along with revised
Information Security at                                             reports and procedures, to address
the RRB (05-11)                                                     the three open recommendations.



                                                  40
     Semiannual Report to the Congress for the period April 1, 2006 - September 30, 2006




APPENDIX E
REPORTING REQUIREMENTS

Inspector General Requirements                                                                  Page

   Section 4(a)(2) - Review of Legislation and Regulations                                         30
   Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 5
   Section 5(a)(2) - Recommendations With Respect to Significant Problems,
    Abuses, and Deficiencies                                                                        5
   Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                          5
   Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   17
   Section 5(a)(5) - Instances Where Information Was Refused                                    None
   Section 5(a)(6) - List of Audit Reports                                                         31
   Section 5(a)(7) - Summary of Each Significant Report                                             5
   Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                32
   Section 5(a)(9) - Statistical Tables on Management Decisions on
    Recommendations That Funds Be Put to Better Use                                                33
   Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
    For Which No Management Decision Has Been Made                                              None
   Section 5(a)(11) - Description and Explanation for Any Significant
    Revised Management Decision                                                                 None
   Section 5(a)(12) - Information on Any Significant Management Decisions
    With Which the Inspector General Disagrees                                                  None


Management Requirements


   Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
   Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         35
   Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  36
   Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          37




                                               41
              REPORT

FRAUD, WASTE AND ABUSE




Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: RRB-OIG Hotline Officer
       844 North Rush Street
       Chicago, IL 60611-2092
